United States Court of Appeals
For the First Circuit
No. 20-1256
WALTER HIMMELREICH,

i

t

Petitioner - Appellant,
v.

STEPHEN SPAULDING, Warden, FMC Devens,
Respondent - Appellee.

Before
Howard, Chief Judge.
Thompson and Barron, Circuit Judges.
JUDGMENT
Entered: January 21, 2021
Appellant Walter Himmelreich appeals from the denial of his petition, brought under 28
U.S.C. § 2241 and the "savings clause" at 28 U.S.C. § 2255(e). The district court concluded that
the claims pressed by appellant were not of the sort allowing for resort to the "savings clause" and
§ 2241. See generally Trenkler v. United States. 536 F.3d 85 (1st Cir. 2008) (discussing "savings
clause" and related principles). Appellee has moved for summary disposition. With his brief and
with his response to the motion for summary disposition, appellant makes no compelling
developed argument for reversible error.
Appellee's motion for summary disposition is hereby GRANTED. The judgment of the
district court is summarily AFFIRMED. See Local Rule 27.0(c).

By the Court:
Maria R. Hamilton, Clerk
cc:

Walter Himmelreich, Donald Campbell Lockhart

d'X d

i

t

Case 4:19-cv-40152-RGS Document 9 Filed 01/07/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 19-40152-RGS
WALTER HIMMELREICH,
Petitioner
v.

WARDEN, FMC DEVENS
Respondent
MEMORANDUM AND ORDER ON
DEFENDANT’S MOTION FOR RECONSIDERATION
January 7, 2020
STEARNS, D.J.
The motion for reconsideration is DENIED.1

Petitioner, Walter

Himmelreich, has succumbed to the common confusion of the doctrine of
legal innocence with that of factual innocence.

The difference is not, as

Himmelreich would have it, a mere “technical issue,” but one that is
fundamental to a correct understanding of habeas corpus law.

As the

Supreme Court explained in Bousley v. United States, 523 U.S. 614, 623-624
(1998), “[t]o establish actual innocence, petitioner must demonstrate that,
‘in light of all the evidence,’ ‘it is more likely than not that no reasonable juror

1 The motion is styled as a Motion to Alter or Amend Judgment.

Case 4:19-cv-40152-RGS Document. 9 Filed 01/07/20 Page 2 of 2

would have convicted him’ . . . [and] that ‘actual innocence’ means factual
innocence, not mere legal insufficiency.” Id. (internal citations omitted).
See also Wooten v. Cauley, 677 F.3d 303, 307-308 (6th Cir. 2012). As the
court previously explained, the First Circuit is firmly of the view that the
Savings Clause to section 2255 may be properly invoked only in instances
where a prisoner is claiming actual innocence, either factual or because a
subsequent reinterpretation of law would have precluded the original finding
of guilt, or where the prisoner was denied an unobstructed procedural
opportunity to press his claim of innocence, none of which apply in
Himmelreich’s case. See United States v. Barrett, 178 F.3d 34, 52 (1st Cir.

■ ^2*.*

1999) (noting with respect the intent of Congress “to streamline collateral
review” and applying the Bousley limitation to petitions invoking the Savings
Clause).2
SO ORDERED.
/s/ Richard G. Stearns ________
UNITED STATES DISTRICT JUDGE

2 In any event, Himmelreich is mistaken in his claim of legal
innocence, namely that “the District Court at his Sentencing never found a
specific date” on which petitioner’s crime occurred. The exact date of an
offense is not an essential element of federal crimes in general nor of the
crime of which petitioner was convicted. See, e.g., United States v.
Escobar-De Jesus, 187 F.3d 148,168 (1st Cir. 1999).
2

rr ~

Case 4:19-cv-40152-RGS Document 6 Filed 12/02/19 Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
Walter Himmelreich
Plaintiff
v.

Civil Action No. 4:19-40152-RGS

Stephen Spaulding
Defendant
ORDER OF DISMISSAL
December 2, 2019
STEARNS. D.J.
In accordance with the Court’s Memorandum and Order [Dkt # 5] issued on
December 2, 2019, denying the petitioner’s writ of habeas corpus, it is ORDERED that
the above-entitled action be, and hereby is, dismissed.

By the Court,
/s/ Arnold Pacho
Deputy Clerk

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 1 of 6

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

!

CIVIL ACTION NO. 19-40152-RGS
WALTER HIMMELREICH
v.
STEPHEN SPAULDING, WARDEN
MEMORANDUM AND ORDER
December 2, 2019
On November 26, 2019, Walter Himmelreich, an inmate in custody at
FMC Devens, filed a petition for a writ of habeas corpus under 28 U.S.C. §
2241. With the petition, he filed a motion proceed in forma pauperis. For
the reasons stated below, the motion to proceed informa pauperis is granted
and the section 2241 petition is denied.
BACKGROUND
In 2006, Walter Himmelreich pled guilty in Middle District of
Pennsylvania to a count of producing child pornography in violation of 18
U.S.C. § 2251(b) and his conviction and sentence was affirmed in 2008.
United States v. Himmelreich, 265 Fed.Appx. 100 (3d Cir. 2008).

He

previously submitted petitions for a writ of habeas corpus in the Middle
District of Pennsylvania, Northern District of Ohio, District of Connecticut
and Court of Appeals for the Third and Sixth Circuits. See Himmelreich v.

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 2 of 6

United States, No. 09-CV-620 (YK), 2010 WL 4181450 (M.D. Pa. Oct. 20,
2010) (denying section 2255 petition), ajfd, 363 F. App’x 175 (3d Cir.) (per
curiam), cert, denied, 131 S. Ct. 240 (2010); Order denying Certificate of
Appealability, United States v. Himmelreich, No. 10-4720 (3d Cir. July 21,
2011) (summary order); Order denying App. For Leave to File Successive §
2255 Petition, In Re: Walter J. Himmelreich, No. 13-1133 (3d Cir. Mar. 12,
2013) (doc. 4), reh’g denied, No. 13-1133 (3d Cir. Apr. 10, 2013); see also
Mem. Of Decision & Order, Himmelreich v. Shartle, No. 4:o8-cv-i3o6 (JG)
(N.D. Ohio June 18,2008) (doc. 6) (denying section 2241 Petition), ajfd, No.
08-4193 (6th Cir. June 2,2011); Mem. & Order, Himmelreich v. Shartle, No.
4:09-cv-56q (JG) (N.D. Ohio May 12, 2009) (doc. 10) (denying second
section 2241 Petition); Order, Himmelreich v. Warden FCI Danbury, No.
3:i4-cv-00930-SRU (D. Conn. Nov. 6, 2014) (doc. 10) (dismissing section
2241 Petition without prejudice to filing an application for leave to file a
successive petition), denying recons., Apr. 24, 2015 (doc. 15), appeal
dismissed, No. 15-1539 (2d Cir. Aug. 11, 2015).
STANDARD OF REVIEW
A federal prisoner wishing to collaterally challenge the validity of his
sentence generally must do so by filing a petition pursuant to 28 U.S.C. §
2255 in the federal court that imposed his sentence. 28 U.S.C. § 2255(a).

2

; v-v

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 3 of 6

Section 2255 “encompasses claims [in which] ‘the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court
was without jurisdiction to impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or is otherwise subject to
collateral attack.’” Gonzalez v. United States, 150 F.Supp.2d 236, 241 (D.
Mass. 2001) (quoting Jiminian v«. Nash, 245 F.sd 144,147-48 (2d Cir. 2001);
see 28 U.S.C. § 2255.
To preserve the finality of criminal convictions, Section 2255 relief is
controlled by a gatekeeping mechanism pursuant to the Antiterrorism and
Effective Death Penalty Act (“AEDPA”), 28 U.S.C. § 2254 et seq. United
States v. Barrett, 178 F.3d 34, 38 (1st Cir. 1999)- Because post-AEDPA
Section 2255 requires an inmate to file in the court of conviction - here the
Middle District of Pennsylvania - the intended result is to relieve the crushing
load on courts in districts where federal prisons happen to be located.
Moreoverrunder AEDPA, a prisoner bringing a second or successive habeas
petition is required to obtain a COA authorizing a district court to consider
the application. Ellis v. United States, 446 F.Supp.2d 1, 3 (D. Mass. 2006).
Under AEDPA:
a prisoner may file a second or successive § 2255 petition only if the
court of appeals first certifies that the petition is based on either: (1)
newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and
3

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 4 of 6

convincing evidence that no reasonable factfinder would have found
the movant guilty of the offense; or (2) a new rule of constitutional law,
made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable.
Barrett, 178 F.3d at 40-41 (quoting 28 U.S.C. § 2255).
Under 28 U.S.C. § 2241, in certain circumstances, this court may
entertain habeas petitions filed by individuals who were sentenced in other
federal courts, but who are incarcerated in facilities located within
Massachusetts. Barrett, 178 F.3d at 49-50 & n.10 (1st Cir. 1999). This is so
where a petitioner challenges the execution of his sentence, or where „he
demonstrates “that the remedy [available] by [§ 2255] motion is inadequate
or ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e) (often

.

referred to as the savings clause).
The savings clause, however, applies only when the procedures of
Section 2255 are “inadequate or ineffective to test the legality of [an inmate’s]
detention.” Obviously, if a petition is based on a claim of newly discovered
evidence or a new rule of constitutional law, the explicit exceptions set in
Section 2255 apply and therefore Section 2255 by definition is not
inadequate. Recourse to the savings clause has only been permitted in “rare
and exceptional circumstances, such as those in which strict adherence to
AEDPA's gatekeeping provisions would result in a ‘complete miscarriage of
justice[.]’” Trenkler v. United States, 536 F.3d 85, 99 (1st Cir. 2008)
4

J

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 5 of 6

(quoting In re Dorsainvil, 119 F.3d 245, 251 (3d Cir. 1997)). “[The First
Circuit] has recognized that the savings clause is most often used in
situations where a retroactive Supreme Court decision as to the meaning of
a criminal statute would mean that a prisoner was not guilty of the crime of
which he was convicted.” United States v. Almenas, 52 F.Supp.3d 341, 345
(D. Mass. 2014).
“The remedy in section 2255 does not become ‘inadequate or
ineffective’ simply by virtue of the fact that the prisoner is not able to meet
the gate-keeping requirements for second or successive petitions.”
Henderson v. Grondolsky, No. 17-10451-JGD, 370 F.Supp.3d 186, 194 (D.
Mass. 2019) (citing Hernandez-Albino v. Haynes, 368 F. App'x 156 (1st Cir.
2010). “[P]ost-conviction relief can be termed ‘inadequate’ or ‘ineffective’
only when, in a particular case, the configuration of section 2255 is such ‘as
to deny a convicted defendant any opportunity for judicial rectification.’”
Trenkler at 99 (citations omitted).
DISCUSSION
Here Himmelreich is not arguing actual innocence. Quite the opposite,
he claims (1) a denial of equal protection based on his membership in a
politically unpopular group, namely criminals, (2) that the sex offender
registration and lifetime supervised release components of his sentence are

5

•

4* *.

Case 4:19-cv-40152-RGS Document 5 Filed 12/02/19 Page 6 of 6

unconstitutional, and (3) that in light of the post-commitment Booker
decision he should have been given a lesser sentence under the Guidelines in
lieu of the statutory mandatory minimum of 20 years.
Himmelreich raised many of these issues in petitions that have been
adjudicated on the merits. He has not shown that his remedy under Section
2255 is inadequate or ineffective and under any formulation his claims do
not qualify for the extraordinary relief provided by the savings clause of
Section 2255. As a result, this Court may not entertain the proposed
challenges to his sentence.
ORDER
Accordingly, it is hereby Ordered that:
1.

Petitioner’s motion [Docket Entry No. 2] for leave to proceed in

forma pauperis is GRANTED.
2.

The petition for a writ of habeas corpus under 28 U.S.C. § 2241

is DENIED.
3-

The Clerk shall enter a separate order of dismissal.
SO ORDERED.
/s/ Richard G. Stearns
UNITED STATES DISTRICT JUDGE

6

